2001 Ross Avenue, Suite 4400
Dallas, TX 75201
t 214 922 7100 f 214 922 7101

direct dial 214 922 7106
direct fax 214 481 0517
acharnes@kilpatricktownsend.com

October 23, 2019

Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Medtronic, Inc. v. Mark A. Barry, M.D., No. 19-414

Dear Mr. Harris:
I represent the respondent in this case. Respondent respectfully requests a 30-day
extension of time to file his brief in opposition to the cert petition. The opposition is currently
due on October 28, 2019. Due to damage caused by a tornado in Dallas on Sunday, undersigned
counsel has not had sufficient time to devote to the opposition. Respondent therefore requests an
extension through and including November 27, 2019.
Thank you for considering this request.
Respectfully submitted,

Adam H. Charnes
cc:

Counsel for Petitioner

ANCHORAGE ATLANTA AUGUSTA BEIJING CHARLOTTE DALLAS DENVER HOUSTON LOS ANGELES NEW YORK RALEIGH SAN DIEGO
SAN FRANCISCO SEATTLE SHANGHAI SILICON VALLEY STOCKHOLM TOKYO WALNUT CREEK WASHINGTON WINSTON-SALEM

